TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        Contract Files Lacked Sufficient
                     Information to Support Determinations
                           of Present Responsibility



                                      September 30, 2011

                              Reference Number: 2011-10-095




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   HIGHLIGHTS


CONTRACT FILES LACKED SUFFICIENT                      sufficient documentation to support IRS
INFORMATION TO SUPPORT                                contracting officers’ affirmative determinations of
DETERMINATIONS OF PRESENT                             contractors’ present responsibility in
RESPONSIBILITY                                        60 (68 percent) of 88 files reviewed. In addition,
                                                      managerial reviews of present responsibility
                                                      determinations were either not conducted or did
Highlights                                            not address the missing documentation. As a
                                                      result, the IRS has an increased risk that
                                                      procurements may be awarded to
Final Report issued on                                nonresponsible contractors, potentially leading
September 30, 2011                                    to additional costs to the Federal Government
                                                      due to subsequent default, late deliveries, or
Highlights of Reference Number: 2011-10-095           other unsatisfactory contractual performance.
to the Internal Revenue Service Chief,
Agency-Wide Shared Services.                          WHAT TIGTA RECOMMENDED
IMPACT ON TAXPAYERS                                   TIGTA recommended that the Chief,
                                                      Agency-Wide Shared Services: 1) develop and
As of May 31, 2011, the Internal Revenue              implement guidance clearly indicating specific,
Service (IRS) Office of Procurement was               minimally acceptable, required documentation
responsible for administering                         for present responsibility determinations, and
1,008 procurements with a reported life-cycle         establish a specific time period for reviewing the
value of approximately $39.2 billion. The IRS         Excluded Parties List System and the Central
does not have an effective process to ensure          Contractor Registration database; 2) provide
that contracting officers’ determinations of          training for contracting officers on properly
present responsibility are adequately conducted       conducting and documenting present
and documented in compliance with Federal             responsibility determinations; and 3) update
Acquisition Regulation requirements. As a             managerial review guidance to include review of
result, the IRS has an increased risk that            the contracting officers’ present responsibility
procurements may be awarded to                        determinations.
nonresponsible contractors.
                                                      IRS officials agreed with the recommendations.
WHY TIGTA DID THE AUDIT                               The IRS stated it issued new guidance which
This audit was initiated because the Federal          includes a requirement for contracting officers to
Acquisition Regulation requires that Federal          perform all required contractor qualification
agencies award procurements only to                   checks and maintain documentation of these
contractors that are presently responsible            checks in the contract files. The IRS also
(i.e., reliable, dependable, and capable of           conducted a “Lessons Learned” training session
performing required work on time and in a             in June 2011 on the new guidance. Additionally,
satisfactory manner). The overall objective of        the IRS is updating managerial review guidance
this review was to determine whether the IRS          to include more explicit contract file review
has an effective process for conducting and           requirements.
documenting present responsibility                    TIGTA noted that the new guidance issued does
determinations to ensure that dishonest,              not fully address all of the concerns TIGTA
unethical, or otherwise nonresponsible                identified. Additional guidance is needed on
contractors are not awarded IRS procurements.         how procurement staff should conduct
                                                      responsibility determinations, examples of
WHAT TIGTA FOUND
                                                      appropriate documentation to be maintained for
The IRS does not have an effective process to         each of the criteria and provisions of law that
ensure that contracting officers’ determinations      must be examined, and the specific time period
of present responsibility are adequately              for conducting contractor qualification checks.
documented. Contract files did not contain
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 30, 2011


 MEMORANDUM FOR CHIEF, AGENCY-WIDE SHARED SERVICES

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Contract Files Lacked Sufficient Information to
                             Support Determinations of Present Responsibility (Audit # 200910023)

 This report presents the results of our review to determine whether the Internal Revenue Service
 has an effective process for conducting and documenting present responsibility determinations to
 ensure that dishonest, unethical, or otherwise nonresponsible contractors are not awarded
 Internal Revenue Service procurements. This review was included in our Fiscal Year 2009
 Annual Audit Plan and addresses the major management challenge of Erroneous and Improper
 Payments.
 Management’s complete response to the draft report is included as Appendix VII.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
 Organizations), at (202) 622-8500.
                                    Contract Files Lacked Sufficient Information
                                to Support Determinations of Present Responsibility




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Contract Files Did Not Always Support Contracting Officers’
          Affirmative Determinations of Present Responsibility ................................. Page 4
                    Recommendation 1: .................................................................. Page 12

                    Recommendations 2 and 3: ....................................................... Page 13


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 15
          Appendix II – Major Contributors to This Report ........................................ Page 18
          Appendix III – Report Distribution List ....................................................... Page 19
          Appendix IV – Sources of Information for Present Responsibility
          Determinations .............................................................................................. Page 20
          Appendix V – Legal Provisions for Disqualification From or
          Ineligibility for Awards................................................................................. Page 23
          Appendix VI – Glossary of Terms ................................................................ Page 25
          Appendix VII – Management’s Response to the Draft Report ..................... Page 29
             Contract Files Lacked Sufficient Information
         to Support Determinations of Present Responsibility




                   Abbreviations

CCR          Central Contractor Registration
EPLS         Excluded Parties List System
FAPIIS       Federal Awardee Performance and Integrity Information System
FAR          Federal Acquisition Regulation
GSA          General Services Administration
IRS          Internal Revenue Service
PPIRS        Past Performance Integrated Retrieval System
                                Contract Files Lacked Sufficient Information
                            to Support Determinations of Present Responsibility




                                             Background

As of May 31, 2011, the Internal Revenue Service (IRS) Office of Procurement was responsible
for administering 1,008 procurements1 – 807 contracts of varying types (including associated
task and delivery orders) and 201 in blanket purchase agreements and interagency contracts and
agreements. The 1,008 active procurements have a reported systems life value of approximately
$39.2 billion.
While the Federal Government seeks to procure goods and services at the lowest possible cost,
awarding a contract based on lowest price alone may not always result in the best value to the
Federal Government. Additional unforeseen and/or unplanned costs may be incurred by the
Government due to subsequent contract default, late deliveries, or other unsatisfactory
contractual performance when awards are made to contractors who are not qualified
(or “nonresponsible”) to perform the work. Contracting officers make present responsibility
determinations, after considering whether prospective contractors meet certain legal standards,
and must use the policies, standards, and procedures prescribed in the Federal Acquisition
Regulation (FAR)2 to make the determinations. They must consider whether prospective
contractors: 1) can be expected to complete contract work on time and in a satisfactory manner,
2) are structured in such a way that doing business with them promotes socioeconomic goals, and
3) meet statutory or regulatory requirements for eligibility. Currently, under the FAR, the
Government relies upon two primary means to avoid doing business with nonresponsible
contractors: present responsibility determinations and exclusion (i.e., suspension and
debarment).3
Contracting officers are required to determine prospective contractors’ responsibility prior to
each contract award by considering information submitted by the contractor or information they
research or acquire from other sources. However, contracting officers have substantial discretion
as to the nature and quantity of information considered in making present responsibility
determinations.4 Because of the potential for bid protest, it is important that present
responsibility determinations be thoroughly conducted and well documented.


1
  We broadly use the term procurements throughout this report to include contracts, task or delivery orders off of
existing contracts, General Services Administration Schedule contracts, and simplified acquisitions.
2
  48 C.F.R. ch. 1 (2009).
3
  Responsibility Determinations Under the Federal Acquisition Regulation: Legal Standards and Procedures,
(Congressional Research Service, by Kate M. Manuel, Legislative Attorney, Reference Number R40633, dated
October 1, 2010).
4
  See Appendix IV for a list of the various types of information that may be used in the contracting officers’
determination of present responsibility.
                                                                                                              Page 1
                                Contract Files Lacked Sufficient Information
                            to Support Determinations of Present Responsibility



To be considered presently responsible under the FAR, prospective contractors must meet
general standards. These standards include the following seven criteria related to contractors’
capabilities and conduct:
    1) Adequate financial resources.
    2) Ability to comply with the delivery or performance schedule.
    3) Satisfactory performance record.
    4) Satisfactory record of integrity and business ethics.
    5) Necessary organization and experience.
    6) Necessary equipment and facilities.
    7) Otherwise qualified and eligible.5
In addition to the general standards, contractors may have to meet special standards which apply
only to specific procurements. Special standards must be explicitly included in agencies’
solicitations. They are used, for example, when unique expertise, special facilities, or specific
experience or equipment are necessary to ensure that the Federal Government’s needs are met.
These special standards are also considered in the contracting officers’ present responsibility
determinations.
Agencies also use exclusion, collectively known as suspension and debarment, to avoid doing
business with nonresponsible contractors. Decisions to exclude are made by agency heads or
their designees (above the contracting officer’s level) based upon evidence that contractors have
committed certain integrity offenses, including any “offenses indicating a lack of business
integrity or honesty that seriously affect the present responsibility of a contractor.”6 Exclusion is
Government-wide and not contract specific.
Contracting officers should first check the Excluded Parties List System (EPLS) to ensure that
excluded contractors do not unintentionally receive new procurements during their period of
exclusion (i.e., while the contractor is suspended, debarred, or proposed for debarment). The
EPLS contains the names of companies or individuals excluded from Federal procurements or
other Federal funding such as grants. The EPLS also includes an archive of “past exclusions”
dating back to Calendar Year 1988. Past exclusions have no present impact on contractor


5
  This criterion includes other provisions of law specifying when contractors are disqualified from or are ineligible
for awards. See Appendix V for a list of the provisions.
6
  Grounds for debarment include, among other things, convictions or civil judgments involving fraud or criminal
offenses in connection with obtaining or performing a Government contract; violations of Federal or State antitrust
laws relating to the submission of offers; embezzlement, theft, forgery, or similar offenses; and intentional misuse of
the “Made in America” designation.
                                                                                                               Page 2
                              Contract Files Lacked Sufficient Information
                          to Support Determinations of Present Responsibility



eligibility, but provide information on whether the entity has engaged in repetitive inappropriate
patterns of conduct, and may indicate an unsatisfactory record of integrity and business ethics.
The FAR also requires prospective Federal Government contractors to be registered in the
Central Contractor Registration (CCR) database in order to be awarded procurements by the
Federal Government. The CCR database is the primary contractor registration database for the
Federal Government. The CCR database is a part of the Business Partner Network which
collects, validates, stores, and disseminates data in support of agency acquisition missions,
including Federal agency contract and assistance awards. In addition, contractors must report
semiannually and maintain accurate information in the CCR on any occurrences such as criminal
convictions, civil proceedings, and administrative proceedings.
This review was performed at the Office of Procurement in Oxon Hill, Maryland, and
at the IRS regional Procurement Field Offices in Oakland, California; Atlanta, Georgia;
New York, New York; and Dallas, Texas, during the period October 2009 through May 2011.
The scope of this audit was focused on present responsibility determinations and did not include
a review of any other preaward requirements, including tax checks.7 We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




7
  Policy and Procedures Memorandum No. 9.1 (dated January 1, 2008) provides that IRS employees will complete a
tax check on prospective contractors for all IRS solicitations more than $250,000, except for orders made under
existing contracts awarded by other agencies, including General Services Administration Federal Supply Schedule
contracts. For more information on tax checks see Treasury Inspector General for Tax Administration report
Federal Guidelines Do Not Prohibit the Awarding of Contracts to Contractors With Delinquent Tax Liabilities
(Reference Number 2010-30-120, dated September 28, 2010).
                                                                                                       Page 3
                           Contract Files Lacked Sufficient Information
                       to Support Determinations of Present Responsibility




                                 Results of Review

The IRS does not have an effective process to ensure that contracting officers’ determinations of
present responsibility are adequately documented. As a result, we could not determine whether
the determinations were conducted in compliance with FAR requirements or whether the IRS
awarded the related procurements to only presently responsible contractors. We found that
60 (68 percent) of 88 contract files did not contain sufficient documentation to support IRS
contracting officers’ determinations of contractors’ present responsibility. In addition,
managerial reviews of present responsibility determinations were either not conducted or did not
address the missing documentation supporting the present responsibility determinations. Where
sufficient information was available in the contract files, we did not identify contractors that
were nonresponsible. However, due to the lack of documentation, the IRS has an increased risk
that procurements may have been awarded to nonresponsible contractors, potentially leading to
additional costs to the Federal Government due to subsequent default, late deliveries, or other
unsatisfactory contractual performance.

Contract Files Did Not Always Support Contracting Officers’
Affirmative Determinations of Present Responsibility
Contracting officers must make an affirmative determination that a prospective contractor is
responsible prior to awarding the contract. The contracting officer must also obtain sufficient
information to be satisfied that the prospective contractor meets the responsibility requirements.
When contracting officers lack sufficient information to determine that the contractor is
responsible, they must make a determination of nonresponsibility.
The FAR also specifically requires that the contracting officer review the EPLS after the opening
of bids or receipt of proposals and again “immediately prior to award” to ensure that no award is
made to a contractor that is excluded (i.e., suspended, debarred, or proposed for debarment). In
addition, upon the opening of bids or receipt of proposals, the FAR requires the contracting
officer to verify the prospective contractor is registered in the CCR database.
The responsible contracting officer must establish a unique contract file to house both required
and supporting documentation from the origination of the procurement through the life of the
contract. This file serves as a background for informed decisions at each step of the acquisition
process, provides information for reviews and investigations, and furnishes essential facts in the
event of litigation (e.g., bid protest) or congressional inquiries. In addition, the Standards for




                                                                                            Page 4
                               Contract Files Lacked Sufficient Information
                           to Support Determinations of Present Responsibility



Internal Control in the Federal Government8 requires clear documentation of all transactions and
other significant events, and that the documentation be readily available for examination.
Internal control standards also require that qualified and continuous supervision be provided to
ensure that internal control objectives are achieved. While IRS guidance states that procurement
reviews will address legal, quality, and regulatory compliance issues, the current guidance does
not include specific guidance on the review of present responsibility determinations.
We reviewed a sample of 88 contract files.9 Our sample included the following types of
procurements:
    •   Formal Contracts: The full range of FAR requirements for present responsibility
        determinations is applicable to these procurements. Our assessment included the
        identification and evaluation of past performance information; contractor qualifications,
        reference checks, and/or questionnaire responses for surveys of third-party sources; credit
        reports (e.g., Dun & Bradstreet Comprehensive Report) or financial statements; research
        of the EPLS “immediately prior to award” requirement; and the CCR database.10 Our
        sample included 44 formal contracts where the contractor was not selected from the
        General Services Administration (GSA) Schedule.
    •   Simplified Acquisitions: The FAR does not require certain aspects of the present
        responsibility determination for simplified acquisitions, including past performance
        evaluations or preaward surveys. Our review was limited to the assessment of IRS
        contracting officers’ research of the EPLS “immediately prior to award,” and to ensure
        that the contractor is registered in the CCR database. Our sample included 16 simplified
        acquisitions.
    •   GSA Schedule Contracts: FAR requirements for present responsibility determinations
        do not apply to agencies that use contracts awarded by other agencies. Our review was
        limited to evaluation of documentation of the contracting officers’ review of the EPLS
        “immediately prior to award.” Our sample included 28 procurements from the GSA
        Schedules.




8
  GAO/AIMD-00-21.3.1, dated November 1999.
9
  See Appendix I for details of the sample selection.
10
   See Appendix IV for additional information on sources of information to support present responsibility
determinations.
                                                                                                            Page 5
                               Contract Files Lacked Sufficient Information
                           to Support Determinations of Present Responsibility



Contract files did not contain sufficient documentation to support IRS contracting officers’
affirmative determination of present responsibility in 60 (68 percent) of 88 files reviewed. The
contract files did not document:11
     •   The full range of FAR requirements for present responsibility determinations in
         13 (30 percent) of 44 formal contracts.
     •   The contracting officers’ review of the EPLS “immediately prior to award” in
         50 (57 percent) of 88 procurements.12
     •   The contracting officers’ review of the CCR database prior to awarding the contract in
         11 (18 percent) of 60 procurements (44 formal contracts and 16 simplified acquisitions).

Formal contracts were not adequately documented for present responsibility
determinations
Our review showed that 13 (30 percent) of 44 formal contract files did not contain sufficient
support of the contracting officers’ evaluation of prospective contractors’ performance records,
financial resources, and/or qualifications. The 13 formal contract files lacked documentation of
contractors’ past performance information from either the Past Performance Integrated Retrieval
System (PPIRS) and/or reference checks internal to the IRS, or from other Federal agencies.
Credit reports and contractor professional qualifications were also not documented in
7 (54 percent) of the 13 contract files.
We reviewed the 13 formal contract files for evidence of managerial review and found that
6 (46 percent) of the 13 formal contract files were not reviewed. In the remaining seven, the
contract files were reviewed, but we identified no review comments regarding the missing
support for determinations of present responsibility.
The FAR provides a list of sources for contracting officers’ use as a basis for documenting that
FAR standards have been met by the prospective contractor. However, contracting officers have
broad discretion in determining what specific documents from those sources provide the best
information to support their decision. See Appendix IV for a list of the various sources of
information that may be used to determine present responsibility.
Although the IRS has overall guidance for present responsibility determinations, the guidance
does not specify the documentation required to provide reasonable assurance that present
responsibility determinations were adequately conducted and documented. For example, IRS
guidance for present responsibility determinations includes a contract file content checklist that

11
   The counts do not total 60 because we identified formal contracts and simplified acquisitions that had more than
one type of information missing.
12
   The requirement for contracting officer review of the EPLS “immediately prior to award” applied to all contracts
included in our sample (i.e., formal contracts, simplified acquisitions, and GSA Schedule contracts).
                                                                                                            Page 6
                              Contract Files Lacked Sufficient Information
                          to Support Determinations of Present Responsibility



includes steps requiring determinations of present responsibility; however, the checklist does not
indicate the specific documentation that should be reviewed and maintained in the contract files.
Finally, the IRS did not provide any formal training for the proper conduct of present
responsibility determinations to ensure consistency and completeness. We believe that a lack of
specific policy guidance and training on how to properly conduct and document present
responsibility determinations contributed to the inconsistencies in conducting and documenting
the present responsibility determinations that we assessed. For example, discussions with
30 contracting officers indicated that 19 (63 percent) did not regularly use database systems,
such as the PPIRS, which are readily available to them for obtaining information on contractor
past performance.
Contract files lacked documented evaluations of contractors’ suspension or
debarment status
Our review showed that 50 (57 percent) of 88 contract files did not support that the contracting
officers reviewed the EPLS “immediately prior to award.” This included 26 of 44 formal
contracts, 7 of 16 simplified acquisitions, and 17 of 28 GSA Schedule contracts. We identified
instances where the contracting officers: 1) researched the EPLS, but the research was more than
15 calendar days prior to awarding the procurements (29 instances); 2) did not research the EPLS
until after awarding the procurements (12 instances); or 3) did not research the EPLS at all
(9 instances). When contracting officers do not research the EPLS immediately prior to
awarding a procurement, there is an increased risk that procurements may be awarded during
periods of contractor ineligibility. Our research of the EPLS for these 50 contractors did not
identify any contractors that had been suspended, debarred, or proposed for debarment at the
time the procurements were awarded.13
Neither the FAR nor IRS policy and procedures define a time period for “immediately prior to
award.” We used 15 calendar days prior to the award date to evaluate whether IRS contracting
officers reviewed the EPLS “immediately prior to award.” In practice, we believe that the
review of the EPLS should occur as close as possible to the day the procurement is awarded to
ensure the most current information is considered before awarding procurements. Because we
could not readily determine when the opening of bids or receipt of proposals occurred, we
focused our observations on the contracting officers’ research of the EPLS in relation to the
procurement award date. The requirement for contracting officer review of the EPLS applied to
all procurements included in our sample (i.e., formal contracts, simplified acquisitions, and GSA
Schedule contracts) and should have been conducted for each of those procurements.
IRS procedures include steps for reviewing the EPLS; however, the IRS indicated that the
requirement to review the EPLS “immediately prior to award” was often overlooked. This may


13
  Our research included reviewing the EPLS archive for contractors who were suspended or debarred. The archive
includes historical information of “past exclusions” dating back to Calendar Year 1988.
                                                                                                       Page 7
                                  Contract Files Lacked Sufficient Information
                              to Support Determinations of Present Responsibility



be due in part to the lack of IRS guidance in defining a specific time period for compliance with
the FAR’s “immediately prior to award” requirement. Our discussions with contracting officers
indicated that they all were aware of the requirement to review the EPLS to ensure that
contractors were not currently suspended, debarred, or proposed for debarment. However, IRS
procurement policy does not define the time period for this requirement. An IRS Office of
Procurement Policy official stated that the FAR does not define the word ‘immediately’ (used
approximately 148 times and in many different contexts in the FAR) and, according to FAR
1.108(a), undefined words retain their common dictionary meaning.14 Further, in performing the
EPLS reviews and other responsibilities, contracting officers should be allowed wide latitude to
exercise business judgment (FAR 1.602-2) and must have the authority, to the maximum extent
practicable and consistent with the law, to determine the application of rules, regulations, and
policies on a specific procurement.
We believe that defining the “immediately prior to award” time period is necessary to ensure that
the time between the contracting officer’s review of the EPLS and the awarding of the
procurement is minimal. In addition, supporting documentation, such as a screen print of the
portions of the EPLS site that were examined and used as a basis for the determination, should be
maintained in the contract file to facilitate management reviews to ensure that this step has been
timely conducted.
Our analysis of contract file documentation showed that 65 (74 percent) of the 88 procurements
had a documented EPLS review that was conducted prior to the procurement award. Figure 1
shows our analysis of the IRS’s research of the EPLS by the number of calendar days: 1) prior
to awarding the procurements, 2) after awarding the procurements, or 3) not documented. Our
analysis showed that, while 65 of 88 procurements had EPLS research conducted prior to the
award, in only 36 instances (41 percent) was the research conducted within 15 calendar days of
the procurement being awarded.




14
     Dictionary.com defines “immediately” as without lapse of time, without delay, instantly, or at once.
                                                                                                            Page 8
                                  Contract Files Lacked Sufficient Information
                              to Support Determinations of Present Responsibility



                    Figure 1: Analysis of Documented IRS Research of EPLS
                                                                 Number of        Percentage
                        EPLS Research Conducted
                                                                Procurements       of Total
        On or within 15 calendar days of procurement award:
          Day of award                                                16             18%
          1 to 15 calendar days prior to award                        20             23%
                                                   Subtotal           36             41%
        More than 15 calendar days prior to procurement
        award:
          16 to 30 calendar days prior to award                       12             14%
          31 to 60 calendar days prior to award                        6              7%
           61 calendar days or more prior to award                    11             13%
                                                   Subtotal           29             33%15
                          Total prior to procurement award            65             74%
        Other observations:
          After procurement award                                     12             14%
          Not documented                                               9             10%
          Date of research could not be determined                     2              2%
                                                   Subtotal           23             26%
                                                      Total           88            100%
       Source: Our analysis of 88 active contract files.

Contract files lacked documented evaluations of the central contractor
registration database
In 11 (18 percent) of the 60 contract files reviewed which required review of the CCR database
(44 formal contracts and 16 simplified acquisitions), the documentation present in the file did not
support that the contracting officer researched the CCR database prior to awarding the contract.
Our research of the CCR database showed that all 11 contractors were registered at the time of
our review (i.e., after award); however, we could not determine whether the contractors were
registered at the time of contract award because we did not have access to historical CCR
database information.
IRS management indicated that this occurred in most instances because the contracting officers
relied on the interface between the IRS Integrated Procurement System and the CCR database
that downloads information daily on registrants. They believe that the automated process in the
Integrated Procurement System will identify a contractor who is not registered in the CCR


15
     Percentage does not total 33 percent due to rounding.
                                                                                             Page 9
                                Contract Files Lacked Sufficient Information
                            to Support Determinations of Present Responsibility



database, and that this is sufficient to meet the requirements of the FAR. We do not believe that
this process meets FAR requirements for ensuring the contractor is registered prior to the
contract award.
When contracting officers do not verify that the contractor is registered in the CCR database
early in the contractor selection process, rather than at the time of award, it increases the risk that
the resulting present responsibility determinations may not be based on the appropriate
contractor information (e.g., Data Universal Numbering System number). In addition, because the
contractor must maintain information on any occurrences of criminal convictions, civil
proceedings, and administrative proceedings in the CCR database, the contracting officer should
review this information early in the selection process. Based on the CCR review, if the
prospective contractor provided information indicating serious integrity and business concerns,
the contractor could be eliminated from the selection process, or the contracting officer may need
to obtain additional information during the present responsibility determination review to make
an affirmative determination.
IRS management indicated that they do not believe the FAR requires contracting officers to
maintain documents supporting their responsibility determination in the contract file. They
stated that it was sufficient if the contracting officer indicates that they completed this step on the
current contract file content checklist and signed the procurement indicating responsibility was
affirmed.

Procedures lack guidance for managerial review of present responsibility
determinations
IRS guidance16 broadly states that Procurement Office Directors are accountable for procurement
quality and shall establish review systems to ensure quality standards are maintained for all
procurement actions within their offices, including simplified acquisitions. However, IRS
procedures for review of individual procurement actions do not specifically address the review of
present responsibility determinations. In addition, our discussions with 11 managers showed that
the procurement office managers had varying approaches for reviewing contract files and did not
have a consistent contract file review methodology. This included the frequency of review and
the status of the procurements selected. For example, the frequency of review varied from
reviewing contract files prior to award, before closeout, twice per year, or after the contract was
awarded. Many of the managers also indicated they reviewed a sample, rather than reviewing all
contract files.
Without sufficient documentation in the contract files and adequate review of present
responsibility determinations, IRS management cannot ensure that contracting officers
adequately perform determinations of responsibility and effectively ensure that procurements are


16
     Policy and Procedures Memorandum No.4.1 (B), dated January 1, 2010.
                                                                                              Page 10
                           Contract Files Lacked Sufficient Information
                       to Support Determinations of Present Responsibility



not awarded to excluded or ineligible contractors. As a result, the IRS has an increased risk that
procurements may be awarded to nonresponsible contractors. This could lead to additional costs
to the Federal Government due to contractor misconduct, integrity issues, subsequent default,
late deliveries, or other unsatisfactory contractual performance. In addition, determinations
based on inadequate information may disadvantage the prospective contractor or other bidders,
and could potentially increase the risk of a bid protest. We believe IRS management should
review the adequacy of the present responsibility determination as part of their contract file
review, whether before or after procurement award.

Changes implemented for present responsibility determinations
The Federal Awardee Performance and Integrity Information System (FAPIIS) was developed
and implemented on April 22, 2010, to improve the Federal Government’s ability to evaluate the
business ethics and expected performance of prospective contractors and grantees, and protect
the Federal Government from doing business with entities that are nonresponsible. The FAPIIS
is a distinct application accessed through the PPIRS and available to Federal acquisition
professionals for their use in award and responsibility determinations. The FAPIIS provides
users access to integrity and performance information, proceedings information from the CCR
database, and suspension and debarment information from the EPLS. As of April 2010, the FAR
requires contracting officers to review information on the FAPIIS, document contract files for
each contract to indicate how the information in the FAPIIS was considered in any responsibility
determination, and document actions taken as a result of the information. When a
nonresponsibility determination is made, the contracting officer is required to document that
information in the FAPIIS.
Management Action: Toward the end of our fieldwork, the IRS issued new guidance that
includes:
   •   Policy and Procedures Memorandum 4.1, dated March 22, 2011: This memorandum
       updated procedures for the uniform structure of file content and contains a content file
       checklist which now includes the updated step “Contracting Officer’s Determination of
       Contractor’s Responsibility or Nonresponsibility Checklist and Supporting Documents
       (including Dun & Bradstreet reports, FAPIIS records, etc.).”
   •   Policy and Procedures Memorandum 9.1(A), dated April 14, 2011: This
       memorandum provides guidance for using the FAPIIS and indicates that “Contracting
       Officers are responsible for performing and filing all required contractor qualification
       checks (as applicable) in the contract file: Dun & Bradstreet, PPIRS, CCR, EPLS (after
       receipt of proposals and “immediately prior to award”), and tax checks.” The guidance
       also includes the Determination of Responsibility or Nonresponsibility checklist.
While we did not test these new processes and procedures, we believe that the guidance is an
improvement over the guidance that was in place at the time of our audit testing. However, we

                                                                                          Page 11
                                Contract Files Lacked Sufficient Information
                            to Support Determinations of Present Responsibility



noted that the guidance does not fully address all of the concerns identified during our review.
The guidance does not clearly define the required range of supporting documentation17 from the
FAR-required sources that should be included in the contract file. For example, the policy
guidance indicates “as applicable” but does not explain what that means. The new guidance also
indicates that the FAPIIS report is to be included in the contract file, but the guidance does not
specify which FAPIIS reports the contracting officer should obtain. In addition, the guidance has
not established a time period for defining the EPLS check “immediately prior to award” and has
not established the required supporting documentation, such as a screen print, for reviews of the
EPLS and the CCR database.

Recommendations
The Chief, Agency-Wide Shared Service, should:
Recommendation 1: Develop and implement guidance for the proper conduct of present
responsibility determinations. This guidance should:
     •   Clearly indicate specific, minimally acceptable, required documentation to support the
         contracting officer’s research for making the responsibility determination.
     •   Require documentation of EPLS research, such as a screen print, and define a specific
         time period for compliance with the FAR requirement for reviewing the EPLS
         “immediately prior to award.”
     •   Define the time period for when the CCR database should be researched and require
         documentation of the CCR database research, such as a screen print.
         Management’s Response: The IRS agreed with this recommendation. The new
         Procurement Policy and Procedure Memorandum 9.1(A) includes an explicit requirement
         for contracting officers to support their responsibility determinations by performing all
         required contractor qualification checks as applicable, completing the Determination of
         Responsibility form, and filing evidence of each required contractor qualification check
         in the contract file as documentation. The IRS’s standard practice is to check certain
         contractor qualifications after the receipt of the proposals and immediately prior to
         contract award. The IRS believes this to be an effective practice, and that, to date, the
         IRS has never awarded a contract to a suspended or debarred contractor. The IRS
         believes defining a specific time period for compliance with qualifications research does
         not allow the contracting officers the latitude necessary to “exercise business judgment”
         and to determine the application of rules and policies prescribed in the FAR.


17
  The current guidance does not specify the documentation that must be included in the contract file (e.g., screen
print of the EPLS).
                                                                                                            Page 12
                               Contract Files Lacked Sufficient Information
                           to Support Determinations of Present Responsibility



        Office of Audit Comment: While the new Policy and Procedure Memorandum
        9.1(A), dated April 14, 2011, addresses some of our requested corrective actions, it does
        not sufficiently address the following aspects of our recommendation. This guidance
        does not provide detailed instructions on how procurement staff should conduct
        responsibility determinations (to include how the seven FAR criteria and other provisions
        of law should be applied, the appropriate sources from which to obtain contractor
        qualification documentation, and examples of appropriate documentation to be
        maintained in the contract file for each of the FAR criteria and provisions of law that
        must be examined prior to making a responsibility determination).18
        Additionally, we believe it is important for the IRS to define the “immediately prior to
        award” time period for performing the EPLS contractor qualification check. During our
        review, we determined that this EPLS review occurred in many instances significantly
        prior to procurement award. For example, the EPLS review occurred more than
        60 calendar days prior to award in 11 of the 88 procurements we tested and was not
        performed prior to award in 12 instances. We believe this indicates a need for IRS
        management to clarify expectations of when the EPLS “immediately prior to award”
        review should be conducted. IRS management could establish a specific time period
        which addresses the intent of “immediately prior to award” and still allows some
        flexibility for contracting officer’s judgment.
Recommendation 2: Provide training for IRS contracting officers on the proper conduct and
documentation of present responsibility determinations.
        Management’s Response: The IRS agreed with this recommendation. The Office
        of Procurement Policy conducts annual “Lessons Learned” training based on quality
        assurance review findings and internal contract file auditing efforts. The latest training,
        conducted in June 2011, included an emphasis on the use of the required contract file
        checklists and included responsibility determination documentation requirements
        implemented in the new Procurement Policy and Procedure Memorandum.
Recommendation 3: Update guidance for managerial review to include specific requirements
for review of the contracting officer’s detailed analysis and documented evaluation of present
responsibility determinations in the contract file.
        Management’s Response: The IRS agreed with this recommendation. The IRS is
        updating the managerial review guidance to add that each review shall confirm and
        ensure the proper file organization and content (including the responsibility determination
        form with supporting documentation attached), and solicitation and contractor/order

18
  The FAR Part 9 requires that documents and reports supporting a determination of responsibility or
nonresponsibility, including any preaward survey reports, the use of FAPIIS information, and any applicable
Certificate of Competency, must be included in the contract file.
                                                                                                         Page 13
                   Contract Files Lacked Sufficient Information
               to Support Determinations of Present Responsibility



quality. The IRS also stated that two separate “Lessons Learned” training sessions were
conducted for managers to emphasize key areas to review for compliance.




                                                                                Page 14
                                 Contract Files Lacked Sufficient Information
                             to Support Determinations of Present Responsibility



                                                                                        Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS has an effective process
for conducting and documenting present responsibility determinations to ensure that dishonest,
unethical, or otherwise nonresponsible contractors are not awarded IRS procurements. To
accomplish our objective, we:
I.         Determined whether the IRS and the Department of the Treasury have established
           policies and procedures that comply with applicable authorities relating to the contracting
           officer’s determination of present responsibility, and how they ensure contractors that
           were suspended,1 debarred, or proposed for debarment prior to award or option renewal,
           are prevented from being awarded additional Federal procurements.
           A. Obtained, reviewed, and evaluated copies of the IRS’s and the Department of the
              Treasury’s written policies and procedures and documented practices used in
              determining when suspension and/or debarment of a contractor are in the Federal
              Government’s best interest.
           B. Determined the current practices used to ensure that if contractors are suspended,
              debarred, or proposed for debarment immediately prior to award or option renewal,
              they are prevented from being awarded additional Federal procurements.
II.        Determined whether the IRS effectively performs the contracting officers’ determinations
           of present responsibility as demonstrated by its ability to identify and exclude
           nonresponsible contractors from being awarded procurements.
           A. Obtained a complete list of current contracting officers and a current list of active
              procurements.
           B. Selected a judgmental sample of 30 contracting officers from a population of 130 IRS
              contracting officers as of September 2, 2009. We selected 7 of 87 contracting officers
              from the Office of Procurement in Oxon Hill, Maryland; 6 of 13 contracting officers
              from Oakland, California; 7 of 14 contracting officers from Dallas, Texas; 6 of
              8 contracting officers from Atlanta, Georgia; and 4 of 8 contracting officers from
              New York, New York. The contracting officers selected at each location were those
              who administered/awarded procurements equal to or greater than $50,000. We used
              judgmental sample selection techniques to obtain representation of all the


1
    See Appendix VI for a glossary of terms.
                                                                                               Page 15
                                  Contract Files Lacked Sufficient Information
                              to Support Determinations of Present Responsibility



               procurements the IRS Office of Procurement administers and to ensure coverage of
               the four regional IRS Procurement offices.
           C. Interviewed contracting officers and obtained an understanding of their current
              practices in completing the determination of present responsibility under the FAR
              Part 9.2
           D. Interviewed the sample contracting officers’ managers and determined the part they
              have in the present responsibility determination process.
           E. Selected a judgmental sample of 88 active procurements. This included
              74 procurements administered by the 30 contracting officers identified in Step II.B
              and 14 administered by or assigned to 8 contracting officers’ managers identified in
              Step II.D. The sample procurements had a total value of more than $142 million.
              The 38 contracting officers and supervisory contracting officers were assigned
              365 active procurements totaling more than $361 million. We selected procurements
              equal to or greater than $50,000. The procurements were selected from
              IRS active procurements as of August 27, 2009, for Oakland, California; as of
              September 24, 2009, for Dallas, Texas; as of December 2, 2009, for
              Oxon Hill, Maryland, and Atlanta, Georgia; and as of January 25, 2010, for
              New York, New York. These dates were selected to correspond with our
              site visits to these locations.
               1. Reviewed the contract files and determined whether the assessment of present
                  responsibility was properly documented.
               2. Determined whether the contracting officers reviewed the PPIRS for prior
                  identified performance issues and documented that review in the contract file.
               3. Determined whether the contracting officers contacted prior users (third-party
                  sources) of the contractors, either internally at the IRS or externally from other
                  Federal agencies, to obtain a reference on their past performance in terms of
                  product or service quality, timely completion, and cost.
               4. Determined whether the contracting officers reviewed the EPLS to determine
                  whether the contractor and its subcontractors were currently suspended, debarred,
                  or proposed for debarment.
               5. Determined whether any of the contractors selected in our sample were listed on
                  the EPLS. If any contractors selected in our sample appeared in the EPLS, we




2
    48 C.F.R. ch. 1 (2009).
                                                                                               Page 16
                                Contract Files Lacked Sufficient Information
                            to Support Determinations of Present Responsibility



                  reviewed the contract award dates and determined whether they were suspended,
                  debarred, or proposed for debarment at the time of award or option renewal.3
             6. Determined whether the contracting officers reviewed the CCR database to ensure
                that the potential contractor was registered and eligible to be awarded a contract
                by the Federal Government.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the FAR,4 Department of the Treasury
regulations, and IRS policies and procedures. We evaluated these controls by interviewing
management and contracting officers, reviewing applicable documentation, and analyzing a
judgmental sample of procurements.




3
  Our evaluation of the EPLS for our sample contracts did not identify any contractors that were listed as currently
suspended or debarred on the EPLS.
4
  48 C.F.R. ch. 1 (2009).
                                                                                                             Page 17
                         Contract Files Lacked Sufficient Information
                     to Support Determinations of Present Responsibility



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Alicia Mrozowski, Director
Darryl Roth, Audit Manager
Mildred Rita Woody, Audit Manager
Julia Moore, Acting Audit Manager
Melvin Lindsey, Lead Auditor
Ken Henderson, Senior Auditor
Trisa Brewer, Auditor




                                                                                  Page 18
                         Contract Files Lacked Sufficient Information
                     to Support Determinations of Present Responsibility



                                                                  Appendix III

                         Report Distribution List

Commissioner C
Office of Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Director, Procurement OS:A:P
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Deputy Commissioner for Operations Support OS
       Chief, Agency Wide Shared Services OS:A
       Director, Procurement OS:AP




                                                                           Page 19
                                 Contract Files Lacked Sufficient Information
                             to Support Determinations of Present Responsibility



                                                                                      Appendix IV

                       Sources of Information for
                  Present Responsibility Determinations

In making the determination of present responsibility, the contracting officer shall consider
relevant past performance information. The FAR1 states that the contracting officer should use
the following sources of information to support present responsibility determinations:
      •    Records and experience data, including verifiable knowledge of personnel within the
           contracting office, audit offices, contract administration offices, and other contracting
           offices.
      •    The prospective contractor, including bid or proposal information, questionnaire replies,
           financial data, information on production equipment, and personnel information.
      •    Commercial sources of supplier information of a type offered to buyers in the private
           sector.
      •    Preaward survey reports.2
      •    Other sources such as publications; suppliers, subcontractors, and customers of the
           prospective contractor; financial institutions; Government agencies; and business and
           trade associations.
Confidence in a prospective contractor’s ability to perform satisfactorily or better is an important
factor in making a present responsibility determination decision. One method of gaining this
confidence is the evaluation of a prospective contractor’s performance on recently completed or
ongoing procurements for the same or similar goods or services. The FAR stipulates that, “a
prospective contractor that is or recently has been seriously deficient in contract performance
shall be presumed to be nonresponsible, unless the contracting officer determines that the
circumstances were properly beyond the contractor’s control, or that the contractor has taken
appropriate corrective action.” Serious deficiencies in performance may include delinquent
performance, delivery of nonconforming items, failure to adhere to contract specifications, late
deliveries, poor management or technical judgment, failure to correct production problems,
failure to perform safely, and inadequate supervision of subcontractors. Contracting officers
must consider the circumstances surrounding any deficient performance when making present


1
    48 C.F.R. ch. 1 (2009).
2
    See Appendix VI for a glossary of terms.
                                                                                                Page 20
                               Contract Files Lacked Sufficient Information
                           to Support Determinations of Present Responsibility



responsibility determinations, and poor performance or default on one or several prior
procurements is not, by itself, sufficient grounds for disqualification.
Another important aspect of the FAR’s general standards for present responsibility
determinations is the evaluation of integrity and business ethics. In evaluating a contractor’s
integrity and business ethics, contracting officers may consider convictions or indictments of
corporate officers, integrity offenses constituting grounds for suspension under the FAR,
repeated violations of State law, or pending debarments. A lack of integrity on the part of
entities with which the contractor has close relationships may also be considered. Because
contractors have an interest in being able to challenge allegations about their integrity that could
deprive them of their livelihood, due process is required when a nonresponsibility determination
is based on concerns about the contractor’s integrity.

Sources of information to support present responsibility determinations
Based on our discussions with contracting officers and evaluation of FAR requirements, the
following are various sources of information and the relation of the information to the present
responsibility determination requirements. The sources of information include, but are not
limited to:
    •   Past performance information, such as from the PPIRS, to evaluate whether or not the
        contractor has complied with prior performance schedules,3 the contractor’s overall past
        performance record,4 and the contractor’s record of integrity or business ethics.5 When
        information is not available, and/or when additional information on contractor
        performance is needed for the present responsibility determination, the contracting officer
        may conduct reference checks or preaward surveys of third-party sources.
    •   Credit reports (e.g., Dun & Bradstreet Comprehensive Report) or financial statements to
        evaluate whether the contractor has the necessary financial6 and technical7 resources and
        the necessary organizational structure and experience.8


3
  FAR Part 9 requires that the contractor must be able to comply with the delivery or performance schedule.
4
  FAR Part 9 requires that the contractor must have a satisfactory performance record.
5
  FAR Part 9 requires that the contractor must have a satisfactory record of integrity and business ethics.
In evaluating the criterion for integrity and business ethics, contracting officers may consider convictions or
indictments of corporate officers, integrity offenses constituting grounds for suspension under the FAR, repeated
violations of State law, or pending debarments. The evaluation of this requirement may also include research of the
EPLS and the CCR database.
6
  The FAR Part 9 requires that the contractor must have adequate financial resources.
7
  The FAR Part 9 requires that the contractor must have the necessary organization, experience, accounting and
operational controls, and technical skills.
8
  The FAR Part 9 requires that the contractor must have the necessary production, construction, and technical
equipment and facilities to perform the work required.
                                                                                                          Page 21
                                Contract Files Lacked Sufficient Information
                            to Support Determinations of Present Responsibility



    •    Contractor qualifications or curriculum vitae from the contractor to evaluate technical
         skills, past experience, and training.
    •    The EPLS and the CCR database to evaluate whether the contractor is otherwise qualified
         and eligible.9 Among other considerations, this includes determining whether the
         contractor has been suspended, debarred, or proposed for debarment under the FAR, and
         is registered in the CCR database. The cause and condition codes in the EPLS may
         provide the provisions of law that were violated and/or any other basis for exclusion or
         ineligibility.




9
  The FAR Part 9 requires that the contractor must be otherwise qualified and eligible. See Appendix V for a list of
the provisions of law specifying when contractors are disqualified from or ineligible for awards.
                                                                                                           Page 22
                                Contract Files Lacked Sufficient Information
                            to Support Determinations of Present Responsibility



                                                                                                 Appendix V

                    Legal Provisions for Disqualification
                      From or Ineligibility for Awards

To be determined responsible according to the FAR,1 prospective contractors must otherwise be
qualified and eligible. This criterion encompasses collateral requirements, or other provisions of
law specifying when contractors are disqualified from or ineligible for awards. Among other
things, contractors are disqualified or ineligible for awards if they: 1) do not comply with
Federal Equal Employment Opportunity requirements, 2) fail to agree to an acceptable plan for
subcontracting with small businesses, 3) are known Government employees, 4) are
quasi-military armed forces, or 5) have unavoidable and unmitigated organizational conflicts of
interest. The following are the major collateral requirements when contractors are disqualified
from or ineligible for awards.
                              Figure 1: Major Collateral Requirements2
    Requirement                     Application
    Equal Employment Opportunity    • Contractors are ineligible if they do not comply with the Equal Employment
                                      Opportunity requirements in Executive Order 11246, which requires, among
    (48 C.F.R. § 22.802(b); Exec.     other things, that contractors “take affirmative action to ensure that applicants
    Order No. 11246, 30 Fed. Reg.     are employed, and that employees are treated during employment, without
    12319 (September 24, 1965)        regard to their race, color, religion, sex or national origin.”
                                    • Contractors cannot receive an award with an expected value of $10 million or
                                      more (excluding construction contracts) unless the Office of Federal Contract
                                      Compliance Programs at the Department of Labor determines in writing that the
                                      contractor is compliant with Executive Order 11246.




1
 48 C.F.R. ch. 1 (2009).
2
 Responsibility Determinations Under the Federal Acquisition Regulation: Legal Standards and Procedures,
(Congressional Research Service, by Kate M. Manuel, Legislative Attorney, Reference Number R40633, dated
October 1, 2010).
                                                                                                          Page 23
                               Contract Files Lacked Sufficient Information
                           to Support Determinations of Present Responsibility



Requirement                      Application
Small Business Subcontracting    • Contractors are ineligible if they fail to agree to an acceptable plan for
Plans                              subcontracting with small businesses under the contract. Section 637(d) of the
                                   Small Business Act (15 U.S.C. § 637(d)) requires that all contracts with
(15 USC § 637(d)(4)(C) (plans      expected values of more than $650,000 ($1.5 million in the case of construction
in negotiated procurements);       contracts) include a “subcontracting plan” that provides the “maximum
15 USC § 637 (d)(5)(B) (plans      practicable opportunity” for various subcategories of small businesses to
in sealed-bid procurements))       participate in performing the contract. Plans must include percentage goals for
                                   subcontracting with small businesses, veteran-owned and service-disabled
                                   veteran-owned small businesses, HUBZone small businesses, small
                                   disadvantaged businesses, and women-owned small businesses. Plans must also
                                   describe the steps that contractors will take to ensure that small businesses have
                                   an equitable opportunity to compete for subcontracts.
Government Employees             • Agencies may not knowingly award contracts to Government employees or
                                   entities owned, or substantially owned or controlled, by Government
(48 C.F.R. §§ 3.601-602)           employees.
                                 • Contracting with Government employees is permitted under certain narrow
                                   exceptions, such as when the Government’s needs cannot otherwise be met.
                                 • If a contracting officer unknowingly contracts with a Government employee,
                                   the award generally will not be disturbed unless there appears to have been
                                   favoritism or other impropriety.
Quasi-Military Armed Forces      • Agencies may not contract with the Pinkerton Detective Agency or “similar
                                   organizations.”
(5 U.S.C. § 3108; 48 C.F.R.§
37.109)                          • Prohibition applies “only to contracts with organizations that offer
                                   quasi-military armed forces for hire, or with their employees, regardless of the
                                   contract’s character.”
Organizational Conflicts of      • Agencies may not award contracts where there are organizational conflicts of
Interest                           interest that cannot be avoided or mitigated. Disqualifying organizational
                                   conflicts of interest could arise if a prospective contractor provided systems
(48 C.F.R. §§ 9.500-9.508)         engineering and technical direction, prepared specifications or work statements,
                                   provided evaluation services, or obtained access to other contractors’
                                   proprietary information while performing other Government contracts.
                                 • Possibility of an organizational conflict of interest is not, in itself, grounds for
                                   disqualification. Rather, when contracting officers identify an organizational
                                   conflict of interest, they must notify the contractor and allow the contractor a
                                   reasonable opportunity to respond.
                                 • Contracting officers have substantial discretion in determining whether
                                   organizational conflicts of interest exist, and their determinations will generally
                                   be reversed, if protested, only when they are clearly unreasonable or directly
                                   contrary to statute or regulation.




                                                                                                          Page 24
                               Contract Files Lacked Sufficient Information
                           to Support Determinations of Present Responsibility



                                                                                                Appendix VI

                                      Glossary of Terms

Term                                       Definition
Affirmative Determination                  Affirmative is defined as “a statement of agreement with an
                                           assertion or request.” In this instance, it is a positive
                                           determination of responsibility for the prospective
                                           contractor.
Bid Protest                                A bid protest is a dispute about contracts that have been, or
                                           are about to be, awarded. Persons and companies may file a
                                           bid protest with the Government Accountability Office, and
                                           the Government Accountability Office will issue a decision
                                           on whether the Federal agency issuing the contract has
                                           complied with Federal procurement laws and regulations.
Bidder                                     Any entity that is responding to or has responded to a
                                           solicitation, including an offeror under a negotiated
                                           acquisition.
Business Partner Network                   The single source for vendor data for the Federal
                                           Government. The Business Partner Network is a search
                                           mechanism that provides unprecedented views into several
                                           key databases across Federal agencies.
Central Contract Registration              The primary contractor registration database for the Federal
(CCR)                                      Government. The database is used to collect, validate,
                                           store, and disseminate data in support of agency acquisition
                                           missions, including Federal agency contract and assistance
                                           awards. The required information includes the contractor’s
                                           legal business name, address, and Data Universal
                                           Numbering System number (the nine-digit number assigned
                                           by Dun & Bradstreet, Inc. to identify unique business
                                           entities). Certain contractors are exempt from the
                                           registration requirement, including classified contracts and
                                           contracts to support unusual or compelling needs.1




1
  See the FAR Part 4 for a complete listing of the contractors exempt from the CCR database registration
requirement.
                                                                                                           Page 25
                           Contract Files Lacked Sufficient Information
                       to Support Determinations of Present Responsibility



Term                             Definition
Certificate of Competency        Document issued by a designated authority that the named
                                 contractor has fulfilled the requirements of receiving and
                                 performing a particular contract.
Credit Report                    A record of an individual’s or company’s past borrowing
                                 and payment history, including information about late
                                 payments and bankruptcy.
Curriculum Vitae                 A comprehensive list of professional history including
                                 terms of employment, academic credentials, publications,
                                 contributions, or significant achievements.
Data Universal Numbering         The nine-digit number assigned by Dun & Bradstreet to
System Number                    identify unique business entities.
Debarment                        An action taken by a designated agency official to exclude a
                                 contractor from Government contracting and
                                 Government-approved subcontracting for a reasonable,
                                 specified period of time. A contractor that is excluded is
                                 “debarred.”
Due Process                      No person can be subject to an individualized proceeding in
                                 which he or she stands to lose one of the protected interests
                                 (in the context of administrative law, either property or
                                 liberty) without sufficient procedures to ensure that the
                                 Governmental action is fundamentally fair.
Dun & Bradstreet                 A commercial source of credit report information providing
Comprehensive Report             insight on businesses, including financial stability.
Excluded Parties List System     A web-based system maintained by the GSA that includes
(EPLS)                           information regarding entities suspended, debarred,
                                 proposed for debarment, excluded, or disqualified under the
                                 nonprocurement common rule, or otherwise declared
                                 ineligible from receiving Federal contracts, certain
                                 subcontracts, and certain Federal assistance and benefits.
Financial Statements             Written reports that quantitatively describe the financial
                                 health of a company. These include an income statement
                                 and a balance sheet, and often also include a cash flow
                                 statement. Financial statements are usually compiled on a
                                 quarterly and annual basis.
Formal Contracts                 Open market acquisitions with award amounts of more than
                                 the simplified acquisition threshold.




                                                                                      Page 26
                          Contract Files Lacked Sufficient Information
                      to Support Determinations of Present Responsibility



Term                              Definition
General Services Administration   GSA Schedules are also referred to as Multiple Award
(GSA) Schedule                    Schedules and Federal Supply Schedules. Under the GSA
                                  Schedules program, GSA establishes long-term,
                                  Government-wide contracts with commercial firms to
                                  provide access to millions of commercial supplies
                                  (products) and services at volume discounts.
Option Renewal                    Exercising the right in a contract by which, for a specified
                                  time, the Government may elect to purchase additional
                                  supplies or services called for by the contract, or may elect
                                  to extend the term of the contract.
Past Performance Information      A web-enabled, Enterprise application that provides timely
Retrieval System (PPIRS)          and pertinent contractor past performance information for
                                  the Department of Defense and the Federal acquisition
                                  community for use in making source selection decisions.
Preaward Survey Reports           An evaluation of a prospective contractor’s ability to
                                  perform a proposed contract.
Simplified Acquisitions           The acquisition of supplies and services, including
                                  construction, research and development, and commercial
                                  items, the aggregate amount of which does not exceed the
                                  simplified acquisition threshold. The simplified
                                  acquisitions threshold at the time of our review was
                                  $100,000; however, effective October 1, 2010, it was raised
                                  to $150,000.
Socioeconomic Goals               It is the policy of the United States, as stated in the Small
                                  Business Act (15 U.S.C. § 631), that all small businesses
                                  have the maximum practicable opportunity to participate in
                                  providing goods and services to the Government. To ensure
                                  that small businesses get their fair share, the Small Business
                                  Administration negotiates annual procurement preference
                                  goals with each Federal agency and reviews each agency’s
                                  results.
Solicitation                      A request to submit offers or quotations to the Federal
                                  Government. Solicitations under sealed bid procedures are
                                  called “invitations for bids.” Solicitations under negotiated
                                  procedures are called “requests for proposals.” Solicitations
                                  under simplified acquisition procedures may require
                                  submission of either a quotation or an offer.



                                                                                        Page 27
                 Contract Files Lacked Sufficient Information
             to Support Determinations of Present Responsibility



Term                   Definition
Suspension             A temporary exclusion of a party pending the completion of
                       an investigation for debarment. A contractor that is under a
                       formal investigation is suspended.




                                                                            Page 28
           Contract Files Lacked Sufficient Information
       to Support Determinations of Present Responsibility



                                                   Appendix VII

Management’s Response to the Draft Report




                                                             Page 29
    Contract Files Lacked Sufficient Information
to Support Determinations of Present Responsibility




                                                      Page 30
    Contract Files Lacked Sufficient Information
to Support Determinations of Present Responsibility




                                                      Page 31
    Contract Files Lacked Sufficient Information
to Support Determinations of Present Responsibility




                                                      Page 32
